Audit Report




OIG-14-036
Treasury Made Progress to Stand Up the Federal Insurance
Office, But Missed Reporting Deadlines
May 14, 2014




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Background ................................................................................................ 2

  Results of Audit .......................................................................................... 4

      Treasury Has Made Progress to Stand Up FIO But It Has Missed Several
      Deadlines ............................................................................................   4
         FIO’s Insurance Industry Activity ..........................................................          4
         FIO’s Administrative Functions.............................................................           6
         FIO Missed Reporting Deadlines ...........................................................            8
         FIO Should Improve Planning Processes ................................................                9

  Recommendations ....................................................................................... 11

Appendices

  Appendix     1:      Objective, Scope, and Methodology ........................................              14
  Appendix     2:      Management Comments ........................................................            16
  Appendix     3:      Major Contributors to this Report ............................................          17
  Appendix     4:      Report Distribution ................................................................    18


Abbreviations and Acronyms

  DO                   Departmental Offices, Department of the Treasury
  FACI                 Federal Advisory Committee on Insurance
  FIO                  Federal Insurance Office
  FSOC                 Financial Stability Oversight Council
  IAIS                 International Association of Insurance Supervisors
  JAMES                Joint Audit Management Enterprise System
  NAIC                 National Association of Insurance Commissioners
  OMB                  Office of Management and Budget
  OIG                  Office of Inspector General




                       Treasury Made Progress to Stand Up the Federal Insurance Office                   Page i
                       But Missed Reporting Deadlines (OIG-14-036)
        This page intentionally left blank.




Treasury Made Progress to Stand Up the Federal Insurance Office   Page ii
But Missed Reporting Deadlines (OIG-14-036)
                                                                               Audit
OIG
The Department of the Treasury
                                                                               Report
Office of Inspector General




                  May 14, 2014

                  Michael T. McRaith
                  Director, Federal Insurance Office

                  The Dodd-Frank Wall Street Reform and Consumer Protection Act
                  (Dodd-Frank) created the Federal Insurance Office (FIO) within the
                  Department of the Treasury (Treasury) and authorized FIO to
                  perform a range of functions, including to monitor all aspects of the
                  insurance sector, coordinate and develop Federal policy on
                  international insurance regulatory matters, and assist the Secretary
                  of the Treasury in negotiating certain international agreements.
                  This report presents the results of our audit of Treasury’s activities
                  to establish FIO as of November 2013.

                  Our audit objective was to evaluate the status and effectiveness of
                  Treasury’s process to establish FIO in a manner that enables it to
                  perform its functions. To accomplish our objective, we reviewed
                  Dodd-Frank, researched available studies for examples of best
                  practices and lessons learned, interviewed Treasury personnel
                  involved with establishing FIO along with FIO management and
                  staff, reviewed documentation regarding FIO’s standup, and
                  evaluated FIO’s compliance with Dodd-Frank reporting
                  requirements. We conducted our field work from May 2012
                  through November 2013. Appendix 1 contains a more detailed
                  description of our objective, scope, and methodology.

                  In brief, since its establishment in July 2010, FIO has engaged in
                  numerous activities. Examples include, it represented U.S. interests
                  related to international insurance matters, worked to establish
                  strategic relationships within the insurance sector, staffed the
                  office, and drafted legislatively required reports. However, four of
                  the five reports required by Dodd-Frank were completed well after
                  their due dates and the other has not yet been completed. In
                  addition, FIO has not documented a strategy for accomplishing its
                  legislative functions, or developed a comprehensive implementation

                  Treasury Made Progress to Stand Up the Federal Insurance Office   Page 1
                  But Missed Reporting Deadlines (OIG-14-036)
                        plan to direct the development of operational processes and ensure
                        critical deliverables are met.

                        We are recommending that FIO (1) ensure that the legislatively
                        required report that is past due is issued with deliberate speed;
                        (2) finalize a plan for achieving its functions, and develop a
                        comprehensive plan to direct the development of its operational
                        processes; (3) provide for maintaining a record of all significant
                        activities performed, decisions made, and actions taken; and
                        (4) determine appropriate performance measures to communicate/
                        demonstrate its accomplishments.

                        In a written response, which is included as appendix 2,
                        management agreed with the recommendations. FIO is working to
                        complete the report on the global reinsurance market and to
                        improve the timeliness of future reports. FIO will document its
                        priorites and implementation plan, provide for record keeping, and
                        develop performance measures. We consider FIO’s commitment
                        to these actions by FIO as responsive to our recommendations.
                        However, FIO will need to record the estimated dates for
                        completing its planned corrective actions in the Joint Audit
                        Management Enterprise System (JAMES), Treasury’s audit
                        recommendation tracking system.

Background
                        Title V, subtitle A of Dodd-Frank created FIO and authorizes FIO to
                        perform a range of functions subject to the discretion and the
                        direction of the Secretary of the Treasury. Among its functions,
                        FIO may coordinate Federal efforts and develop Federal policy on
                        prudential aspects of international insurance matters, including
                        representing the U.S. in the International Association of Insurance
                        Supervisors (IAIS). 1 Dodd-Frank also authorizes FIO to monitor all
                        aspects of the insurance sector including: identifying issues or gaps

1
    Established in 1994, IAIS represents insurance regulators and supervisors of more than 200
    jurisdictions. The association’s objectives are to promote effective and globally consistent supervision
    of the insurance industry to develop and maintain fair, safe, and stable insurance markets for the
    benefit and protection of policyholders and to contribute to global financial stability. Although FIO
    has authority to represent the U.S. Government internationally at IAIS, state insurance regulators
    present the views of the insurance regulatory community internationally, either directly or through
    the National Association of Insurance Commissioners.

                        Treasury Made Progress to Stand Up the Federal Insurance Office             Page 2
                        But Missed Reporting Deadlines (OIG-14-036)
                        in the regulation of insurers that could contribute to a systemic
                        crisis in the insurance industry or the U.S. financial system;
                        assessing the accessibility and affordability of insurance products
                        to minorities, low-and moderate-income persons, and underserved
                        communities; and coordinating federal policy in the insurance
                        sector.

                        The U.S. insurance sector is primarily regulated by the states.
                        Dodd-Frank authorizes FIO to receive and collect data and
                        information on the insurance sector and enter into information
                        sharing agreements, including with state insurance regulators. If
                        information that FIO reasonably requires to carry out its functions
                        is not readily available from public sources or regulatory agencies,
                        Dodd-Frank gives FIO the authority to require insurers to submit
                        such information to FIO. The FIO Director has the power to issue
                        subpoenas, as needed, to compel compliance with information
                        requests.

                        FIO is also authorized to consult with state insurance regulators
                        regarding insurance matters of national importance as well as
                        prudential insurance matters of international importance. FIO’s
                        authority extends to all lines of insurance with the exception of
                        health insurance, long-term care insurance (except that included
                        with life or annuity insurance components), and crop insurance.

                        According to FIO management, Treasury is keenly aware of the
                        importance of the insurance sector to the economy, both as a risk
                        transfer mechanism for individuals, families, and businesses, and as
                        an important component in the capital markets. The National
                        Association of Insurance Commissioners (NAIC) 2 reported, at the
                        end of 2012, that the U.S. insurance industry’s total invested
                        assets were approximately $5.4 trillion dollars. Of this, 65 percent,
                        or $3.5 trillion, were held by the life insurance sector and 30
                        percent, or $1.6 trillion, were held by the property and casualty
                        insurance sector. In addition, the U.S. insurance industry’s net
                        premiums written for these sectors totaled $1.1 trillion in 2012,


2
    Created in 1871, NAIC is the U.S. standard-setting and regulatory support organization created and
    governed by the chief insurance regulators from the 50 states, the District of Columbia and the five
    U.S. territories. Through the NAIC, state insurance regulators establish standards and best practices,
    conduct peer reviews, and coordinate their regulatory oversight.

                        Treasury Made Progress to Stand Up the Federal Insurance Office            Page 3
                        But Missed Reporting Deadlines (OIG-14-036)
              which represented approximately 7 percent of the gross domestic
              product in the U.S.

              Excluding health insurance, the U.S. insurance industry writes
              approximately 27 percent of global premium volume, a significant
              concentration of revenue for internationally-active insurance
              groups. The development of middle classes and the increased
              market sophistication in many emerging economies emphasize the
              importance of appropriate international regulatory standards to
              serve as a platform for U.S.-based insurers to participate in non-
              U.S. markets. According to FIO management, the creation of FIO
              presents the U.S. the opportunity to have a central, federal point of
              contact for the international insurance sector and for insurance
              supervisors from around the world.


Results of Audit
              Treasury Has Made Progress to Stand Up FIO But It Has
              Missed Reporting Deadlines

              Since its establishment in July 2010, FIO has engaged in numerous
              activities. As examples, it has represented U.S. interests related to
              international insurance matters, worked to establish strategic
              relationships within the insurance industry, staffed the office, and
              drafted legislatively required reports. However, four of the five
              reports required by Dodd-Frank were completed well after their
              initial due dates and the other has not yet been completed. FIO also
              has not documented a strategy for achieving its mission; or
              developed a comprehensive implementation plan to direct the
              development of critical deliverables, infrastructure, and operational
              processes.

              FIO’s Insurance Industry Activity

              According to Treasury officials, FIO’s primary operational focus to
              date has been on representing U.S. interests in international
              insurance matters and working to establish strategic relationships
              within the insurance industry. As such, FIO joined IAIS in October
              2011 and has been working with IAIS to develop a common
              framework for the supervision of internationally active insurance
              groups. In connection with its work with IAIS, FIO officials serve

              Treasury Made Progress to Stand Up the Federal Insurance Office   Page 4
              But Missed Reporting Deadlines (OIG-14-036)
                        on numerous committees and collaborate with insurance
                        supervisors throughout the world, dealing with issues ranging from
                        data collection to the identification of globally significant insurance
                        companies. FIO was a leader in developing the European Union-
                        U.S. Insurance Regulatory Dialogue (EU-U.S. Dialogue). This EU-
                        U.S. Dialogue is expected to lead to improved regulatory
                        compatibility between the European Union and the U.S.
                        Furthermore, as an example of bilateral engagements with many
                        countries, FIO participated in the U.S.–China Strategic and
                        Economic Dialogue in Beijing (S+ED), which was the first
                        opportunity for FIO to interact with the Chinese Insurance
                        Regulatory Commission. According to FIO management, the S+ED
                        can foster a cooperative bilateral relationship leading to improved
                        supervisory balance and competitive opportunities for U.S-based
                        insurers.

                        FIO management also told us that FIO is building relationships
                        within the domestic insurance sector. For example, FIO coordinates
                        with the NAIC, has assembled and interacted with the Federal
                        Advisory Committee on Insurance (FACI), serves on a U.S.
                        Department of Veterans Affairs advisory committee related to
                        servicemember life insurance, and has provided a forum for the
                        discussion of insurance topics within the federal government and
                        the insurance sector. 3 Management further stated that FIO has also
                        been active in its role as a non-voting member of the Financial
                        Stability Oversight Council (FSOC). 4

                        We noted that FIO was unable to provide formal documentation to
                        support the extent of its involvement in these activities. However,
                        meeting minutes of groups FIO participates in, such as the FACI
                        and FSOC, reflect that FIO does participate in their respective
                        activities. We believe that FIO needs to maintain a more complete
                        record of the material activities performed by the office and their



3
    Chartered in August 2011, FACI is responsible for providing advice and recommendations directly to
    FIO to assist it in carrying out its duties and authorities. FACI was formed by the authority under
    Title 31 (Money and Finance), Subtitle I (General), Chapter 3 (Department of Treasury), Section
    313(h) (Federal Insurance Office) of the U.S. Code.
4
    Established by Dodd-Frank, FSOC is charged with identifying threats to the financial stability of the
    U.S., promoting market discipline, and responding to emerging risks to the financial stability of the
    U.S. financial system.

                        Treasury Made Progress to Stand Up the Federal Insurance Office            Page 5
                        But Missed Reporting Deadlines (OIG-14-036)
                         results to provide for greater transparency and to conform to
                         Treasury’s record policy. 5

                         FIO’s Administrative Functions

                         FIO was established within the Office of Financial Institutions under
                         Treasury’s Office of Domestic Finance. As part of Treasury’s
                         Departmental Offices (DO), FIO uses the DO physical and
                         information systems infrastructure to perform and secure its work;
                         and DO administrative processes, policies, and procedures for
                         human resources, legal and rulemaking, procurement, financial
                         management, and budgetary functions. FIO’s budget is contained
                         within, and managed as part of, the overall budget for the Office of
                         Domestic Finance. FIO’s cumulative expenditures for fiscal years
                         2011 and 2012 totaled approximately $1.2 million of which 84
                         percent was allocable to personnel costs. FIO officials told us that
                         expenditures for fiscal year 2013 increased to approximately $2.1
                         million of which 88 percent was personnel costs.

                         A Treasury official told us that since FIO’s budget is not a separate
                         budgetary line item; no formal performance measures have been
                         developed to evaluate the effectiveness of its operations. FIO is a
                         component of an agency (Treasury) as defined in Office of
                         Management and Budget (OMB) Circular A-11, Preparation,
                         Submission, and Execution of the Budget, Part 6, Strategic Plans,
                         Annual Performance Plans, Performance Reviews, and Annual
                         Program Performance Reports. 6 Accordingly, FIO is not required to
                         independently comply with the specific agency requirements
                         detailed in the circular. However, OMB Circular A-11 calls for a
                         performance framework that cascades down the organization to all
                         agency managers and team leaders. It states that agencies are

5
    Treasury’s documentation requirements are established in Treasury Directive Publication 80-05,
    Records and Information Management Manual” (June 2002), which states that all program officials
    shall create and maintain adequate and proper documentation of the program for which they are
    responsible. This means a record of the conduct of government business that is complete and
    accurate to the extent required to document the organization, functions, policies, decisions,
    procedures, and essential transactions of their office and to protect the legal and financial interest of
    the government and of persons directly affected by the activities of their office.
6
    OMB Circular No. A-11, Part 6 is guidance that lays out the path for implementing the Federal
    Government’s performance management framework.



                         Treasury Made Progress to Stand Up the Federal Insurance Office              Page 6
                         But Missed Reporting Deadlines (OIG-14-036)
expected to work with their components to identify priorities,
goals, performance indicators, and other indicators relative to the
mission and strategic objectives of the agency. In line with OMB
Circular A-11 and as a best practice, we believe that it is important
for FIO to develop and implement performance measures to more
effectively communicate/demonstrate its accomplishments.

Under Dodd-Frank, the position of the FIO Director is a career
reserved position in the Senior Executive Service and is appointed
by the Secretary of the Treasury. The first (and current) FIO
Director was appointed by former Secretary Geithner in June 2011
and, as mentioned above, is organizationally situated within the
Office of Domestic Finance. As of November 2013, FIO’s staff
level is 13 full-time equivalents (FTE), with approval for up to 15
FTEs.

Figure: FIO Organization Chart


                                   Director


                       Executive
                       Assistant


        Deputy Director,      Deputy Director,
                                                      Deputy Director,
          Regulatory             Financial
                                                      Consumer Issues
            Policy               Stability


           Policy Advisors          Policy Advisor           Program
           and Analysts (4)        and Analysts (4)         Analysts (2)




Source: FIO

A Treasury official told us that the complement of 15 was
determined by using the human capital planning approach which
identified: (1) the purposes of the office, (2) the skills required for
the office, and (3) the skills already available. FIO was unable to
provide us with a copy of this analysis. According to this official,
once FIO reaches 15 FTEs, an assessment will be made to further
evaluate the sufficiency of the staff size.


Treasury Made Progress to Stand Up the Federal Insurance Office            Page 7
But Missed Reporting Deadlines (OIG-14-036)
                       FIO Missed Reporting Deadlines

                       Dodd-Frank required FIO to issue five reports, of which two reports
                       are an annual requirement and three reports were a one-time
                       requirement. Four of the required reports, including both initial
                       annual reports, were completed well after their due dates, and the
                       other one has not yet been completed. The five required reports are
                       as follows.

                             •   An annual report to the President and Congress on action
                                 taken by FIO regarding preemption of inconsistent state
                                 insurance measures – the first report was due
                                 September 30, 2011. 7

                                 Status: On December 20, 2012, 15 months after it was
                                 initially due, FIO submitted the first annual report to the
                                 President and Congress on actions taken regarding
                                 preemption of inconsistent state insurance measures. We
                                 noted that this report only addressed actions taken during
                                 the year ended September 30, 2012, even though the first
                                 report of this type was due September 30, 2011. The
                                 preemption report for fiscal year 2013 was submitted on the
                                 September 30, 2013, due date.

                             •   An annual report on the insurance industry and any other
                                 information deemed relevant by the Director – the first report
                                 was due September 30, 2011.8

                                 Status: FIO released its first annual report in June 2013, 18
                                 months after it was initially due. FIO has decided that going
                                 forward it will release its annual report in June, rather than
                                 September, so that calendar year end insurance industry
                                 data used in the report remains current.

                             •   A report on how to modernize and improve the system of
                                 insurance regulation in the United States – due 18 months
                                 after the enactment of the Dodd-Frank Act, which was
                                 January 20, 2012. 9

7
    31 U.S.C. § 313(n)(1).
8
    31 U.S.C. § 313(n)(2).
9
    31 U.S.C. § 313(p)(1).

                       Treasury Made Progress to Stand Up the Federal Insurance Office    Page 8
                       But Missed Reporting Deadlines (OIG-14-036)
                                Status: FIO released its modernization report on
                                December 12, 2013, 23 months after it was due.

                            •   A report describing the breadth and scope of the global
                                reinsurance market and the critical role such market plays in
                                supporting insurance in the United States – due no later than
                                September 30, 2012. 10

                                Status: Report has not been completed as of May 8, 2014.

                            •   A report on the impact of the Nonadmitted and Reinsurance
                                Reform Act of 2010 – due no later than January 1, 2013. 11

                                Status: FIO released the required report on the impact of the
                                Nonadmitted and Reinsurance Reform Act of 2010 in
                                October 2013, 10 months after it was due.

                        According to FIO management, the reasons that FIO missed the
                        required deadlines vary. For example, FIO management told us that
                        the insurance industry modernization report was highly anticipated
                        by the insurance industry, and the report underwent an extensive
                        review process to ensure that the information and
                        recommendations contained within the report were not
                        misinterpreted. They stated that the global reinsurance report has
                        been delayed while FIO focuses resources on drafting a higher
                        priority report by the President’s Working Group on the availability
                        and affordability of insurance for terrorism risk. 12 FIO management
                        also stated that the delays were due, in large part, to the
                        considerable amount of time required to identify, attract, and hire
                        staff with the knowledge and experience in several areas of
                        insurance regulation needed to perform its work relating to the
                        reports.

                        FIO Should Improve Planning Processes

                        FIO has not implemented a formal planning and implementation
                        methodology to assist management in guiding the performance of

10
     31 U.S.C. § 313(o)(1).
11
     Dodd Frank Act, Title V, Section 313(o)(2)
12
     15 U.S.C. § 6701, note.

                        Treasury Made Progress to Stand Up the Federal Insurance Office   Page 9
                        But Missed Reporting Deadlines (OIG-14-036)
                         its functions. In this regard, FIO has not documented a strategy for
                         achieving its mission or developed a comprehensive implementation
                         plan to control the development of the key deliverables and
                         operational processes. As a result, there is a risk that FIO may
                         incur further delays in performing its functions and achieving the
                         objectives FIO sets for itself.

                         The Office of the Assistant Secretary for Management coordinates
                         the initial process for establishing a new office in DO and ensures
                         that the human capital plan takes timing into account to ensure
                         that office leadership is brought on and has the opportunity to
                         refine the plan to accomplish the office’s functions. According to a
                         Treasury official, the procedures for starting a new office in DO
                         vary depending on the size and scope of the mission of the new
                         office and the strategies to accomplish the office’s functions are
                         generally adjusted by incoming leadership during the course of the
                         standup. Treasury does not have any specific directives or other
                         requirements which define the process for guiding the standup of a
                         new office. 13

                         FIO management told us that for them to prepare a formal strategic
                         plan would not be consistent with other offices of the same level
                         and size within Treasury. They noted that FIO, as a component of
                         Treasury, would be covered under Treasury’s strategic plan.
                         Further, they told us that much of the work of FIO was determined
                         by requests from external parties such as FSOC or by externally
                         defined workstreams arising from their work on international
                         issues. However, they do expect that work plans will be developed
                         to meet FIO’s strategic direction and objectives that have been
                         further defined in the insurance industry modernization report.

                         We understand that Dodd-Frank does not set any time frames or
                         deadlines for FIO to accomplish its legislative functions and that, as
                         a component of an agency, FIO is not required to separately
                         complete a formal strategic plan. However, the development of
                         some form of a strategy document along with a comprehensive
                         implementation plan detailing the workstreams needed to execute

13
     Treasury Directive 21-01 “Organizational Changes” establishes a policy and procedure for approval of
     significant organizational changes within the Department of Treasury but does not address the
     processes that must be implemented to guide the stand-up of a new office or function required in
     law.

                         Treasury Made Progress to Stand Up the Federal Insurance Office         Page 10
                         But Missed Reporting Deadlines (OIG-14-036)
           the strategy with milestones, due dates, and a mechanism to
           measure progress against the plan are well recognized best
           practices when establishing a new office.


Recommendations
           We recommend that the Director of FIO:

           1. Ensure that the remaining uncompleted legislatively required
              report is issued with deliberate speed. In addition, FIO should
              develop and implement processes to ensure the timely
              completion and submission of future reports.

              Management Response

              FIO is working with deliberate speed to complete its report on
              the global reinsurance market and its role in supporting
              insurance in the United States, and to improve its timely
              submission of future reports.

              OIG Comment

              Management’s commitment to take these actions is responsive
              to our recommendation. FIO will need to record the estimated
              dates for completing its planned corrective actions in JAMES.

           2. Develop a written document detailing FIO’s strategy for
              achieving its functions. To facilitate the execution of this
              strategy, we recommend that FIO also develop a comprehensive
              implementation plan defining priorities, critical work streams,
              deliverables, milestones, due dates for efficiently and effectively
              developing FIO’s organizational structure and business
              processes. FIO should also develop processes to assign
              accountability for the completion of tasks and measure progress
              against the plan.

              Management Response

              FIO will document its priorities and an implementation plan.



           Treasury Made Progress to Stand Up the Federal Insurance Office   Page 11
           But Missed Reporting Deadlines (OIG-14-036)
   OIG Comment

   Management’s commitment to take these actions is responsive
   to our recommendation. FIO will need to record the estimated
   dates for completing its planned corrective actions in JAMES.

3. Provide for maintaining a record of all significant activities
   performed, decisions made, and actions taken.

   Management Response

   FIO will provide for recordkeeping.

   OIG Comment

   Management’s commitment to provide for recordkeeping is
   responsive to our recommendation.

4. Determine appropriate performance measures to communicate/
   demonstrate FIO’s accomplishments.

   Management Response

   FIO will develop performance measures to communicate FIO’s
   accomplishments.

   OIG Comment

   Management’s commitment to take these actions is responsive
   to our recommendation. FIO will need to record the estimated
   dates for completing its planned corrective actions in JAMES.




Treasury Made Progress to Stand Up the Federal Insurance Office   Page 12
But Missed Reporting Deadlines (OIG-14-036)
                           * * * * *


We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384 or Jim Lisle, Audit Manager, at
(202) 927-6345. Major contributors to this report are listed in
appendix 3.




Jeffrey Dye /s/
Director, Banking Audits




Treasury Made Progress to Stand Up the Federal Insurance Office   Page 13
But Missed Reporting Deadlines (OIG-14-036)
                         Appendix 1
                         Objective, Scope, and Methodology




                         The objective of this audit was to evaluate the status and
                         effectiveness of Treasury’s process to establish the Federal
                         Insurance Office (FIO) in a manner that enables FIO to perform its
                         functions.

                         To achieve the audit objective, we developed criteria using the
                         applicable Dodd-Frank Wall Street Reform and Consumer Protection
                         Act (Dodd-Frank) sections and best practices derived from reports
                         prepared by the U.S. Government Accountability Office 14 and a
                         consultant. 15 Using these criteria, we reviewed documentation
                         pertaining to the stand-up of FIO and interviewed key personnel.
                         Specifically, we performed the following.

                             •   Interviewed the Treasury Departmental Office (DO) personnel
                                 responsible for establishing FIO as well as FIO management,
                                 including: the FIO Director, FIO Senior Policy Analysts and
                                 Advisors, the Senior Advisor for Business Operations for the
                                 Office of Domestic Finance, and the then-Deputy Assistant
                                 Treasury Secretary for the Office of Financial Institutions;
                                 and,

                             •   Reviewed, to the extent available, planning documentation
                                 related to the stand-up of FIO.

                             •   Evaluated FIO compliance with reporting requirements
                                 defined by Dodd-Frank.

                         We conducted our field work from May 2012 through November
                         2013.

14
     GAO-03-669: Results-Oriented Cultures; Implementation Steps to Assist Mergers and Organizational
     Transformations, July 2003. The report described the lessons learned from private and public sector
     mergers, acquisitions, and transformations to help the then-newly created Department of Homeland
     Security merge 22 federal agencies. Among other things, it identified as a best practice to “establish
     a coherent mission and integrated strategic goals…” by “adopting leading practices for results
     oriented strategic planning and reporting” and “set implementation goals and a timeline to build
     momentum and show progress from day one.”
15
     Booz, Allen, Hamilton report to Treasury: Research & Analysis: Organizational Stand-ups Lessons
     Learned and Key Insights, May 2010. This study was conducted to guide Treasury in the preparation
     and planning for the design and stand-up of the Consumer Financial Protection Bureau, and it
     identified best practices to support an agency through the successful road mapping, design,
     implementation planning and stand-up process. Among many best practices identified around
     planning is the need to conduct a comprehensive policy mapping exercise, perform robust strategic
     and tactical planning, and create implementation plans for mission critical activities.

                         Treasury Made Progress to Stand Up the Federal Insurance Office           Page 14
                         But Missed Reporting Deadlines (OIG-14-036)
Appendix 1
Objective, Scope, and Methodology




We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Treasury Made Progress to Stand Up the Federal Insurance Office   Page 15
But Missed Reporting Deadlines (OIG-14-036)
Appendix 2
Management Comments




Treasury Made Progress to Stand Up the Federal Insurance Office   Page 16
But Missed Reporting Deadlines (OIG-14-036)
Appendix 3
Major Contributors To This Report




James Lisle, Audit Manager
Christen Janell Stevenson, Auditor-in-Charge
Olivia Scott, Auditor
Regina Morrison, Referencer




Treasury Made Progress to Stand Up the Federal Insurance Office   Page 17
But Missed Reporting Deadlines (OIG-14-036)
Appendix 4
Report Distribution




Department of the Treasury

   Deputy Secretary
   Under Secretary for Domestic Finance
   Deputy Assistant Treasury Secretary for the Office of Financial
      Institutions
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Federal Insurance Office

   Director

Office of Management and Budget

   OIG Budget Examiner




Treasury Made Progress to Stand Up the Federal Insurance Office   Page 18
But Missed Reporting Deadlines (OIG-14-036)
